<html>
<title> - THE EFFECT OF SANCTUARY CITY POLICIES ON THE ABILITY TO COMBAT THE OPIOID EPIDEMIC</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








  THE EFFECT OF SANCTUARY CITY POLICIES ON THE ABILITY TO COMBAT THE 
                            OPIOID EPIDEMIC

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2018

                               __________

                           Serial No. 115-32

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







      Available via the World Wide Web: http://judiciary.house.gov 
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
30-996                    WASHINGTON : 2018                 
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JERROLD NADLER, New York
    Wisconsin                        ZOE LOFGREN, California
LAMAR SMITH, Texas                   SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   STEVE COHEN, Tennessee
DARRELL E. ISSA, California          HENRY C. ``HANK'' JOHNSON, Jr., 
STEVE KING, Iowa                         Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC L. RICHMOND, Louisiana
TREY GOWDY, South Carolina           HAKEEM S. JEFFRIES, New York
RAUL LABRADOR, Idaho                 DAVID CICILLINE, Rhode Island
BLAKE FARENTHOLD, Texas              ERIC SWALWELL, California
DOUG COLLINS, Georgia                TED LIEU, California
RON DeSANTIS, Florida                JAMIE RASKIN, Maryland
KEN BUCK, Colorado                   PRAMILA JAYAPAL, Washington
JOHN RATCLIFFE, Texas                BRAD SCHNEIDER, Illinois
MARTHA ROBY, Alabama                 VALDEZ VENITA ``VAL'' DEMINGS, 
MATT GAETZ, Florida                      Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona
JOHN RUTHERFORD, Florida
KAREN HANDEL, Florida

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                   RAUL R. LABRADOR, Idaho, Chairman
F. JAMES SENSENBRENNER, Jr.,         ZOE LOFGREN, California
    Wisconsin                        LUIS V. GUTIERREZ, Illinois
LAMAR SMITH, Texas                   PRAMILA JAYAPAL, Washington
STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
JIM JORDAN, Ohio                     JAMIE RASKIN, Maryland
KEN BUCK, Colorado
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona


































                            C O N T E N T S

                              ----------                              

                           FEBRUARY 15, 2018

                           OPENING STATEMENTS

                                                                   Page
The Honorable Raul Labrador, Idaho, Chairman, Subcommittee on 
  Immigration and Border Security, Committee on the Judiciary....     1
The Honorable Zoe Lofgren, California, Ranking Member, 
  Subcommittee on Immigration and Border Security, Committee on 
  the Judiciary..................................................     3

                               WITNESSES

Detective Nick Rogers, President, Denver Police Protective 
  Association
    Oral Statement...............................................     5
The Honorable A.J. Louderback, Sheriff, Jackson County, Texas 
  Sheriff's Office
    Oral Statement...............................................     7
Ms. Jessica Vaughan, Director of Policy Studies, Center for 
  Immigration Studies
    Oral Statement...............................................     8
Dr. Keith Humphreys, Professor, Department of Psychiatry, 
  Stanford University School of Medicine
    Oral Statement...............................................     9
              Additional Material Submitted for the Record

Letter from Congresswoman DeGette, Statement for the Record from the 
    City of Denver, Comprehensive Background Document, Copy of Denver's 
    Public Safety Priorities Act, Overview of efforts to address opioid 
    epidemic in Denver, Overview of Denver Police Department's Drug 
    Enforcement Efforts, Q4 Tracker ICE Notification of Release 
    Requests, Law Enforcement Action Partnership, American Immigration 
    Council, Tahirih Justice Center, Church World Service (CWS), 
    Immigrant Legal Resource Center (ILRC), Drug Policy Alliance. 
    Submitted by the Honorable Zoe Lofgren, California, Ranking Member, 
    Subcommittee on Immigration and Border Security, Committee on the 
    Judiciary. This material is available at the Committee and can be 
    accessed on the committee Repository at:

        http://docs.house.gov/meetings/JU/JU01/20180215/106864/HHRG-
        115-JU01-20180215-SD007.pdf

DPD Policies regarding Illegal Immigrants slideshow. Submitted by the 
    Honorable Ken Buck, Colorado, Member, Subcommittee on Immigration 
    and Border Security, Committee on the Judiciary. This material is 
    available at the Committee and can be accessed on the Committee 
    Repository at:

        http://docs.house.gov/meetings/JU/JU01/20180215/106864/HHRG-
        115-JU01-20180215-SD003.pdf

Crackdown on Immigrants undermines public safety, Tukwila officers turn 
    immigrant over to ICE after he called them for help. Was that 
    legal? Charge: Child rape suspect threatened to deport victim's 
    mother. Submitted by the Honorable, Pramila Jayapal, Washington, 
    Member, Subcommittee on Immigration and Border Security, Committee 
    on the Judiciary. This material is available at the Committee and 
    can be accessed on the Committee Repository at:

        http://docs.house.gov/meetings/JU/JU01/20180215/106864/HHRG-
        115-JU01-20180215-SD005.pdf

Congresswoman Sheila Jackson Lee of Texas, Committee Statement; The 
    Effects of Sanctuary Policies on Crime and the Economy. Submitted 
    by the Honorable Sheila Jackson Lee, Texas, Member, Subcommittee on 
    Immigration and Border Security, Committee on the Judiciary. This 
    material is available at the Committee and can be accessed on the 
    Committee Repository at:

        http://docs.house.gov/meetings/JU/JU01/20180215/106864/HHRG-
        115-JU01-20180215-SD004.pdf

Letter to the Honorable Bob Goodlatte. Submitted by the Honorable Jamie 
    Raskin, Maryland, Member, Subcommittee on Immigration and Border 
    Security, Committee on the Judiciary. This material is available at 
    the Committee and can be accessed on the Committee Repository at:

        http://docs.house.gov/meetings/JU/JU01/20180215/106864/HHRG-
        115-JU01-20180215-SD008.pdf

New Denver Public Safety Enforcement Priorities Proposal. Submitted by 
    the Honorable Raul Labrador, Idaho, Chairman, Subcommittee on 
    Immigration and Border Security, Committee on the Judiciary. This 
    material is available at the Committee and can be accessed on the 
    Committee Repository at:

        http://docs.house.gov/meetings/JU/JU01/20180215/106864/HHRG-
        115-JU01-20180215-SD006.pdf


 
  THE EFFECT OF SANCTUARY CITY POLICIES ON THE ABILITY TO COMBAT THE 
                            OPIOID EPIDEMIC

                              ----------                              


                      THURSDAY, FEBRUARY 15, 2018

                        House of Representatives

                       Committee on the Judiciary

            Subcommittee on Immigration and Border Security

                             Washington, DC

    The subcommittee met, pursuant to call, at 9:00 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Raul Labrador 
[chairman of the subcommittee] presiding.]
    Present: Representatives Labrador, King, Jordan, Buck, 
Johnson of Louisiana, Biggs, Lofgren, Gutierrez, Jayapal, 
Jackson Lee, and Raskin.
    Staff Present: Joseph Edlow, Counsel; Sabrina Hancock, 
Clerk; and Maunica Sthanki, Minority Counsel.
    Mr. Labrador. The Subcommittee on Border and Immigration 
Security will come to order. Without objection, the chair is 
authorized to declare recesses of the committee at any time. We 
welcome everyone to today's hearing on the effect of sanctuary 
city policies on the ability to combat the opioid epidemic. And 
now I recognize myself for an opening statement.
    One of the more destructive byproducts of irresponsible and 
lax immigration enforcement under the Obama administration was 
the rise of the sanctuary jurisdiction. Sanctuary jurisdictions 
nationwide continually refuse to cooperate with ICE and 
actively violate or disregard Federal law. This committee has 
repeatedly delved into the complex issues surrounding these 
practices, but the problem persists, and it is becoming endemic 
among many metropolitan communities.
    For several congresses, we have heard countless stories of 
sanctuary practices and the havoc they wreak on public safety, 
national security, and the sanctity of the rule of law in this 
country. Unfortunately, little has changed even with the change 
of administrations. Instead of working with the Federal 
Government, specifically ICE, to create a framework for 
cooperation, these jurisdictions have chosen to dig in deeper.
    Last year's announcement by San Francisco that the city 
would no longer participate in the Joint Terrorism Task Force 
for fear of coming into contact with immigration issues has 
only been exacerbated by audacious State policy.
    In 2017 the States of Illinois and California passed 
legislation that will tremendously limit the ability of State 
and local law enforcement agencies from working with or even 
contacting ICE. While the long-term effects of the framework 
have yet to be truly realized, these laws will absolutely have 
far reaching impacts on public safety and ultimately 
constitutional law.
    While this committee continues to work toward an end to 
sanctuary practices and a reinstatement of immigration 
enforcement nationwide, we cannot forget or largely ignore 
consequence of these ill-conceived policies. In many of these 
communities local law enforcement agencies that have 
traditionally enjoyed strong professional relationships with 
Federal law enforcement partners are being forced, through no 
fault of their own, to dissolve those relationships.
    This hearing focuses on the continual fight against the 
opioid epidemic that is raging in this country. We are not here 
to discuss the underlying causes of the epidemic. And to be 
sure, this committee is not asserting that sanctuary policies 
have caused such an epidemic.
    But the fight against opioids at the law enforcement level 
has, as asserted by our witnesses' written testimony, greatly 
relied on strong Federal partnerships, including partnerships 
with ICE. The crimes associated with the opioid crisis, 
including drug trafficking and violent felonies, require 
coordination, cooperation, and most importantly, communication.
    Nowhere is this more clearly demonstrated than in Denver, 
Colorado. At a time when drug crimes are soaring in the city, 
Denver has made a policy decision to not work with ICE and to 
make a poor distinction that immigration enforcement is 
unrelated to law enforcement activities.
    While the correlation between the two is incontrovertible, 
Denver is following the lead of many other cities and 
threatening those law-enforcement officers that would violate 
such a policy. These practices not only fail to recognize the 
benefit of strong cooperation, but also fail to see just how 
closely immigration enforcement and drug enforcement are 
connected.
    With the influx of narcotics smuggling, especially in 
opioids, through our porous borders, it is often the tools of 
immigration enforcement that provide best practices to 
interdict and dismantle those operations. Just this week, Fox 
News reported that an alien deported three times was arrested 
in Florida for the intent to distribute over $400,000 of 
methamphetamine. Our public safety and our public health are 
tied to eradicating opioids which can never be accomplished 
when the force multiplier that is ICE is sidelined based on 
political expediency and grandstanding.
    I want to thank Congressman Buck for bringing this issue to 
the foreground and for suggesting this important hearing. I 
also want to thank all the witnesses for being here today, and 
I look forward to this discussion. The time for Congress to act 
on sanctuary policies is long overdue, but I am confident that 
placing a continued focus on this issue will assist in the 
eventual reversal of such dangerous policies and practices.
    I now recognize our ranking member, Ms. Lofgren of 
California, for her opening statement.
    Ms. Lofgren. Today's hearing asks us to examine the nexus 
between so-called sanctuary city policies and the opioid 
epidemic. I say ``so-called,'' because it is important to note 
at the outset that the term sanctuary city has been used to 
describe pejoratively a wide variety of community originated 
law enforcement policies.
    For example, Dayton, Ohio will honor ICE detainers if an 
individual poses a threat to national security or is a suspect 
in a felony offense involving violence or trafficking, and 
there is reason to believe the person lacks legal status.
    In my home State of California, there is State law that 
local law enforcement will notify ICE about individuals where 
certain criminal offenses allows for transfer to ICE only after 
a conviction. And these policies are considered by my local 
police department as community trust policies where they can 
make sure that community members will continue to cooperate 
with the police because they are not perceived as being 
immigration agents.
    I would note also that although our Attorney General has 
been quite vocal in opposition to policies that refuse to 
recognize so-called detainers, a court decision in the Central 
District of California just last week found that it violates 
the Fourth Amendment to do what the Attorney General is asking 
local governments to do.
    And I will just quote on page 41 of the decision, ``The Los 
Angeles Sheriff's Department officers did not have probable 
cause that the individuals were involved in criminal activity 
but were instead holding these individuals on the basis of 
civil immigration detainers. The LASD officers had no authority 
to arrest individuals for civil immigration offenses, and thus 
detaining individuals beyond their date for release violated 
the individuals' Fourth Amendment rights, and likely those 
individuals will obtain monetary damages for the violation of 
their rights.''
    So I think it is important to know that we have to have 
respect for the different levels of government; the Federal 
Government does one thing; State and local do others. There is 
no one-size-fits-all.
    I also think that to connect the opioid epidemic with the 
community trust policies is rather misplaced. You know, the 
Centers for Disease Control indicates that most opioid deaths 
have occurred in rural areas with small immigrant populations, 
not in large cities. In 2016, for example, West Virginia, a 
State with relatively few immigrants and few, if any, so-called 
sanctuary cities saw the highest number of opioid deaths per 
capita. And States with high immigrant populations and urban 
community trust policies, such as California and Texas, 
experienced relatively low numbers of opioid deaths.
    Now, the opioid crisis is a result of multiple systematic 
factors. Nearly all experts agree that it is an American-made 
problem that originates with our prescription drug industry. As 
Professor Keith Humphreys explains in his testimony, the opioid 
epidemic was made in America, not in Mexico, China, or any 
other foreign country. And the suggestion that mass deportation 
would solve the opioid crisis, I think, is ridiculous. And it 
derails a productive bipartisan conversation on the opioid 
epidemic.
    Now, numerous experts have concluded that we cannot arrest 
our way out of the epidemic; we cannot deport our way out of it 
either. Even if we were to deport all 11 million undocumented 
immigrants from our country, we would still have an opioid 
crisis on our hands.
    The opioid crisis can only be solved by assembling experts, 
medical professionals to assemble policies that will get at the 
root of this devastating crisis. But at a time when facts play 
a minor role and politics are in the driver's seat, some are 
using the immigrant community as a scapegoat, I think, for a 
complex societal problem that is, really, unrelated to 
immigration policy.
    So I would challenge all of us today to take a break from 
that pattern and to work together to see if we could not come 
to grips with the serious opioid epidemic that is facing our 
country.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Labrador. Thank you, Ms. Lofgren. Just for the record, 
I do not think anybody's suggesting that mass deportation would 
solve the opioid crisis. I think you will see from all the 
witnesses that not a single one of them suggests that. But I 
thank you all for being here.
    Without objection, other members' opening statements will 
be made part of the record.
    Mr. Labrador. We have a distinguished panel here today. The 
witnesses' written statements will be entered into the record 
in its entirety. I ask that you summarize your testimony in 5 
minutes or less. To help you stay within that time, there is a 
timing light on your table. When the light switches from green 
to yellow, you will have 1 minute to conclude your testimony. 
When the light turns red, it signals that your 5 minutes have 
expired.
    Before I introduce our witnesses, I would like you to stand 
and be sworn in.
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth?
    Let the record reflect that the witnesses answered in the 
affirmative. Thank you. Please be seated. I would like to yield 
to the gentleman from Colorado, Mr. Buck, to introduce 
Detective Rogers.
    Mr. Buck. Thank you, Mr. Chairman for the opportunity to 
introduce a dedicated public servant, Detective Nick Rogers.
    Detective Rogers serves as the president of the Denver 
Police Protective Association. He is a 32-year veteran of the 
City and County of Denver's Police Department, serving as a 
detective for the District 4 Narcotics Investigations Unit of 
the Denver Police Department for the last 20 years.
    He brings a strong understanding of the tactics that 
narcotics traffickers use to feed the scourge of opioid 
addiction throughout our Nation, especially in my home State of 
Colorado.
    Detective Rogers will also tell us about the severe 
restrictions the City and County of Denver have placed on all 
Denver police officers, hampering officers' ability to 
communicate with ICE following apprehension of heroin peddlers 
who are in this country illegally.
    Thank you, Detective Rogers, for agreeing to be here today. 
I also want to thank Chairman Goodlatte for bringing attention 
to this issue. Finally, I want to thank Chairman Labrador for 
holding this important hearing today. With that, I yield back 
the balance of my time. Thank you.
    Mr. Labrador. Thank you. Now I will introduce Sheriff 
Louderback. Sheriff Louderback is a 35-year law enforcement 
veteran serving his fourth term as Sheriff of Jackson County. 
He is currently the Legislative Chairman for the Sheriff's 
Association of Texas, and is a past president of SAT. He has 
spoken nationally on Federal immigration policies and is a 
nationally published author on immigration legislation.
    Locally, Sheriff Louderback has led the 287-G program in 
the Gulf Bend region. Sheriff Louderback also serves on the 
Jail Advisory Committee, TCOLE Advisory Committee, and is a 
past board member of the Texas Association of Counties. He is 
an active member of the Gulfman Community Collaborative and 
serves on the National Sheriff's Association Immigration 
Committee and Governmental Affairs Committee.
    Ms. Jessica Vaughan has been with the Center for 
Immigration Studies since 1992 where she served as director of 
policy studies. Prior to joining the Center, Ms. Vaughan was a 
Foreign Service Officer with the State Department where she 
served in Belgium, Trinidad, and Tobago. She is also an 
instructor for senior law enforcement officer training seminars 
at Northwestern University's Center for Public Safety in 
Illinois.
    Ms. Vaughan has a master's degree from Georgetown 
University and earned a bachelor's degree in international 
studies at Washington College in Maryland.
    Professor Keith Humphreys. Dr. Humphreys is a professor and 
the section director for mental health policy in the Department 
of Psychiatry and Behavioral Sciences at Stanford University. 
He is also a senior research career scientist at the VA Health 
Services Research Center, Palo Alto, and an honorary professor 
of psychiatry at the Institute of Psychiatry, King's College, 
London.
    Dr. Humphreys has served as a member of the White House 
Commission on Drug-free Communities, the VA National Mental 
Health Task Force, and the National Advisory Counsel of the 
U.S. Substance Abuse and Mental Health Services Administration. 
He also served one year as senior policy advisor at the White 
House office of National Drug Control Policy during the Obama 
administration.
    I now recognize Detective Rogers for his statement.

STATEMENTS OF NICK ROGERS, PRESIDENT, DENVER POLICE PROTECTIVE 
 ASSOCIATION; A.J. LOUDERBACK, SHERRIFF, JACKSON COUNTY, TEXAS 
SHERIFF'S OFFICE; JESSICA VAUGHAN, DIRECTOR OF POLICY STUDIES, 
CENTER FOR IMMIGRATION STUDIES; AND KEITH HUMPHREYS, DEPARTMENT 
     OF PSYCHIATRY, STANFORD UNIVERSITY SCHOOL OF MEDICINE

                    STATEMENT OF NICK ROGERS

    Mr. Rogers. I am new at this. I am sorry. This is my first 
time, probably my last. I appreciate it; I really do.
    Beginning in 2006, I began to see heroin on the streets of 
Denver. As the arrests grew, I was able to interview both 
sellers and buyers. It became apparent the source of heroin was 
coming from Mexico, and the parties selling it were also from 
Mexico and Honduras.
    Early on, I found that almost all the buyers of the heroin 
were middle-class white young adults from the suburbs. Each one 
had a story to tell, but the overwhelming consistent part of 
the story was that they started their own opiate addiction by 
taking their parents' leftover pain pills, slowly becoming 
addicted to them.
    Some had been involved in an accident or had a surgery, 
with the common thread of taking oxycodone and becoming 
addicted to it. Each of these stories wound up on the streets 
of Denver because buying pills on the street is too expensive, 
and they all turned to the cheaper opiate, heroin.
    The heroin dealers also had a common story. They were 
mostly young 18- to 25-year-old illegal aliens, mostly from 
Mexico. But as the years went by, some started coming from 
Honduras and Nicaragua. They were all in possession of several 
ounces of heroin, had a fake ID from Mexico--Sinaloa most 
common.
    Some of these arrests led to what was known as ``the 
office''; a location, usually a higher end apartment, which is 
used only to stash heroin and large amounts of money. Many of 
these offices produce tens of thousands, if not hundreds of 
thousands of dollars in cash waiting to be sent back to Mexico. 
Each office had produced an average of one pound of heroin 
located there.
    I began to see a disturbing trend. I started to arrest the 
same parties twice. For example, working in an undercover 
capacity, I bought heroin from an illegal alien, arrested him, 
charged him with distribution of a controlled substance and had 
an immigration detainer placed on him, believing this would end 
that suspect's involvement in the narcotics trade.
    Several months to maybe a year or so later I arrested the 
same suspect who was now wanted for failing to appear on the 
first case, and is now in possession of heroin for a second 
time.
    The only change was the suspect was now in possession of a 
new fake ID with a different name. This became common practice 
in my unit, as well as other narcotics units around the city. 
Arresting illegal aliens for possession of large amounts of 
heroin, cocaine, and methamphetamine, who are now living under 
fake names, all the while being wanted on failing to appear for 
charges, appear on other drug charges.
    During a typical arrest, as I described above, I would 
contact one of two ICE agents, Nick Fowler or Kevin Cruz, both 
of whom I worked closely with here in Denver. These two ICE 
agents did a fantastic job and were invaluable to us during 
those early years. They would respond any time of day or night 
to assist us. They would interview the suspects and ultimately 
put a detainer on those suspects if they were, indeed, here 
illegally. They often found that the person they were 
interviewing had been deported before; sometimes they had been 
deported several times.
    In October, 2017 this all changed. The City and County of 
Denver placed several restrictions on all DPD officers, 
forbidding them to contact ICE, as we had done so many times 
before. The city adopted an ordinance, 17-0940, placing these 
restrictions on DPD officers. We were informed that if we 
communicated with ICE, we were subject to discipline up to and 
including termination. We were also told that if we violated 
the ordinance, we were subject to criminal prosecution and 
would be fined up to $999 and a term of incarceration not to 
exceed 300 days in jail. I have provided an actual ordinance 
for you to read.
    The individuals I am speaking about did not sell and 
distribute narcotics; they committed burglaries--auto thefts 
and robberies--just to name a few of their crimes. I think it 
should be noted that in all the years I have dealt with ICE, I 
cannot remember a single time our coordinated efforts were 
targeting minor offenses.
    In short, the only parties we ever worked together on were 
felons who had committed serious crimes. I also need to 
emphasize that illegal aliens are only a small percent of 
individuals that I deal with daily. Each day brings a new case, 
a new set of suspects, who span the entire gamut of all walks 
of life.
    The ordinance has had a chilling effect on our daily 
operations. We can no longer call and share information with 
ICE. They can no longer call and ask us for assistance or ask 
for intel on suspects involved in criminal activity. The 
ordinance has created, in my opinion, a city that is much less 
safe than it was prior to this ordinance.
    Detective Roger's written statement is available at the 
Committee or on the committee repository at: http://
docs.house.gov/meetings/JU/JU01/20180215/106864/HHRG-115-JU01-
Bio-RogersD-20180215.pdf
    Mr. Labrador. Twenty more seconds. You are good?
    Mr. Rogers. I skipped a little paragraph.
    Mr. Labrador. All right.
    Mr. Rogers. I will be all right.
    Mr. Labrador. Thank you very much for your testimony. 
Sheriff Louderback.

                  STATEMENT OF A.J. LOUDERBACK

    Mr. Louderback. Chairman Labrador, Ranking Member Lofgren, 
and the other distinguished members of the immigration 
subcommittee: how can law enforcement be told, instructed, and 
ordered to not work together with all law enforcement agencies 
in this country? How, as a Nation of laws, can we not cooperate 
in the law enforcement field? How can law enforcement protect 
our citizens when cities, counties, and States will not partner 
against criminality?
    Law enforcement officers who have sworn to uphold the law 
is being used to undermine the law. Law enforcement faces a 
constant flow of opioids, trafficked humans, criminal aliens to 
our communities. Nowhere is it clearer than sanctuary cities, 
which is creating a safe haven for criminality. Wherever 
sanctuary policies exist, your law enforcement is not able or 
permitted to cooperate, communicate, or partner to fight crime 
as a team, or honor our laws of this country.
    This is, and has always been, a serious public safety 
issue. Thank you.
    Sheriff Louderback's written statement is available at the 
Committee or on the committee repository at: http://
docs.house.gov/meetings/JU/JU01/20180215/106864/HHRG-115-JU01-
Wstate-LouderbackA-20180215.pdf Mr. Labrador. Thank you very 
much. Ms. Vaughan.

                  STATEMENT OF JESSICA VAUGHAN

    Ms. Vaughan. Thank you, Chairman Labrador and Ranking 
Member Lofgren, for the opportunity to participate today.
    The opioid epidemic has been nothing short of horrific; 
tragically destructive to families and potentially to our 
communities. And, of course, we must help those who are 
struggling with addiction and substance abuse with treatment 
and other support, but we will not make progress on this crisis 
until we disrupt and dismantle the criminal organizations that 
bring these deadly substances into our communities.
    Local law enforcement agencies cannot do it on their own. 
Neither can the DEA nor the FBI. Because these deadly drugs are 
coming in from across our borders, immigration enforcement is a 
critical element in that effort. For it to succeed, there must 
be robust and unfettered cooperation between all of the local, 
State, and Federal law enforcement agencies who are dedicated 
to fighting these criminal organizations.
    And let's be clear, proponents of sanctuary policies claim 
that the policies are necessary either for community trust 
reasons or legal reasons. But these are bogus arguments. In 
truth, sanctuary policies are purely political and intended to 
thwart the enforcement of immigration laws that these political 
leaders disagree with, but which were enacted through our 
democratic process, and which Americans support.
    But there is a human cost to this politicization of law 
enforcement, and Congress cannot allow it to continue. 
According to the DEA, about 80 percent of the illegal opioids 
sold in this country are brought in by foreign criminal 
organizations, primarily the Mexico-based drug cartels, and 
especially the Sinaloa Cartel.
    They have cells in the United States; they work with other 
criminal groups to distribute the drugs--sometimes street gangs 
like MS-13, which also have a lot of members are noncitizens, 
many recently arrived. The fact that these operatives are in 
the country illegally is a major vulnerability that law 
enforcement agencies must take advantage of.
    There are three ways that sanctuary policies are 
compromising our ability to win against the foreign drug 
traffickers. First, they interfere with communication and block 
access to information as we have heard from the officer from 
Denver. A common type of sanctuary policy is to prohibit the 
questioning of suspects about their immigration status. And 
that means they have to look the other way in immigration 
violations, missing an opportunity to keep the criminal off the 
streets. It also means that they are less likely to detect 
imposters, people using aliases, fraudulent documents. That is 
all a common occurrence among drug traffickers, especially 
those who have been deported once already.
    Local officers typically are not trained to recognize 
immigration documents or signs of ID theft by foreign 
nationals, and they need the discretion to contact the DHS 
agencies that can assist in identifying criminal aliens 
involved in the drug trade.
    Second, sanctuary policies inevitably result in the release 
of criminal aliens back to the streets where they can, and do, 
reoffend, just like American criminals do. According to ICE, 
since January, 2014 there have been 10,000 criminal aliens who 
were released by sanctuary policies who were later arrested for 
another crime after their release.
    These crimes create needless victims. ICE rearrests only 
about 40 percent of them. A lot of them were released during 
the Obama administration and failed to appear for their 
hearings as the officer noted. So there is a lot of cleanup 
work that ICE now has to do because of these policies.
    Finally, sanctuary policies can act as a magnet for foreign 
criminal organizations because they know that immigration 
violations will be overlooked, and that their use of fraudulent 
documents and aliases is less likely to be detected. Just two 
nights ago Fox News ran a story about ICE sanctuary cleanup 
operations in California. And they had a criminal alien on 
camera saying how disappointed he was to be arrested because he 
thought he was safe in California, because it was a sanctuary 
State.
    On this same operation, participants observed how absurdly 
time-consuming it has become for ICE in California, because 
instead of arresting dozens of criminal aliens at a time in the 
jails, ICE offices must stake them out at their homes where the 
criminal aliens know ICE cannot enter without consent; and they 
sometimes stand in the windows, laughing at the ICE officers. 
Eventually they come out and ICE gets them, but this is a very 
costly way to go about removing criminal aliens who could be 
picked up in the jail if ICE were not blocked by this 
irresponsible California law.
    Congress can do something about this. Local politicians are 
not going to reverse these policies on their own, so Congress 
must act to clarify the legal authorities that support 
immigration enforcement and to impose consequences on sanctuary 
jurisdictions and the officials who are responsible for these 
destructive policies.
    Also, Congress should update immigration laws to make sure 
that criminals who are involved in the drug trade and gang 
members are excludable from the country and cannot obtain 
visas, work permits, green card citizenship, or any immigration 
benefit. Thank you.
    Ms. Vaughan's written statement is available at the 
Committee or on the committee repository at: http://
docs.house.gov/meetings/JU/JU01/20180215/106864/HHRG-115-JU01-
Wstate-VaughanJ-20180215.pdf
    Mr. Labrador. Thank you. Dr. Humphreys.

                  STATEMENT OF KEITH HUMPHREYS

    Mr. Humphreys. Thank you, Chairman Labrador and Ranking 
Member Lofgren, for having me testify today.
    My comments reflect my 30 years of experience as a 
clinician and researcher in the addiction field, and also my 
service as a White House drug policy advisor in both the Bush 
and Obama administrations. And I mention that to say that is 
because drug problems affect all of us. I tried to work on them 
in a bipartisan fashion.
    In the first 15 years of this century more Americans died 
of drug overdose than died in World Wars I and II combined. 
2016 death toll was 64,000 people, about 80 percent of which 
involved opioids, is worse than AIDS in the peak year of that 
terrible epidemic. To push back on this epidemic, we have to 
analyze it dispassionately and deploy our resources 
strategically. In that regard, I think there are many high-
impact policies available to us, but I do not think that 
cracking down on sanctuary cities is one of them.
    I was born and raised in West Virginia, which is ground 
zero of this epidemic. I go back home frequently to help my 
home State deal with the ravages of opioid addiction. West 
Virginia is emblematic of where this epidemic has taken hold; 
in rural areas that do not have sanctuary cities. A lot of 
people would say we do not even have cities. Recent immigrants 
are rare, yet opioid addiction is rampant. That is because this 
epidemic was made in America, not somewhere else.
    Beginning in the 1990s, American companies such as Purdue 
Pharma produced a generation of doctors and healthcare 
regulators to dramatically increase opioid prescribing. As a 
result, the U.S. now dwarfs all other nations in opioid 
consumption. We are number one in the world. And if we cut our 
prescribing by 40 percent, we would still be number one in the 
world, not a distinction of which to be proud.
    The astonishing increase in providing opioids which at its 
apex reached a quarter billion prescriptions a year is what 
started and helps maintain our opioid epidemic. And again, 
prescription opioids come from American companies, prescribed 
by American doctors, overseen by American regulators. 
Immigrants have no part in it.
    It is absolutely true that some criminals from other 
countries deal heroin in the United States. But as documented 
in journalist Sam Quinones' excellent book, ``Dreamland,'' 
those dealers came here to capitalize on people already 
addicted to prescription opioids, as Detective Rogers said as 
well.
    Few people decide to spontaneously use heroin laced with 
fentanyl. But many people get pushed to that point after first 
becoming addicted to prescription opioids. Arresting heroin 
dealers from other nations will thus never eliminate the root 
of our problem.
    Similarly, President Trump's proposal to build a wall on 
the Rio Grande is ill-directed when the healthcare system puts 
out enough opioids each year for every American adult to be 
medicated around the clock for a month.
    There are, however, other policy options that would make a 
much bigger difference, and because Congress has very wisely 
appropriated $6 billion to fight the opioid epidemic, we now 
have the resources to begin putting them into place.
    Two sources of good ideas are the Surgeon General's report 
on facing addiction that was released 14 months ago, and the 
President's Commission on Combating Addiction and the Opioid 
Crisis, which began offering proposals beginning last summer.
    Here are some of their good ideas. We should enhance 
prescription drug monitoring programs which help prescribers 
identify doctors/shoppers who are addicted, diverting pills to 
sell, or both. These programs also help law enforcement 
identify pill mills. We should ensure that non-opioid pain 
treatments are adequately reimbursed by insurance. As a major 
purchaser of healthcare, the Federal Government has a lot of 
leverage in this area.
    Congress should direct the Department of Labor to actively 
enforce the provisions of the 2008 Mental Health Parity and 
Addiction Equity Act. This law, which was passed by 
overwhelming bipartisan majorities in Congress, says that 
insurers of large companies have to cover employees' addiction 
care at the same level they do other care. Many insurers have 
violated the regulations and denied life-saving addiction 
treatment to people who need it and to which they are entitled 
to it.
    We need to get naloxone, the life-saving overdose reversal 
drug into the hands of every first responder in this country. 
As a major purchaser, the Federal Government should in this 
emergency situation waive its rule forbidding negotiation of 
drug prices and purchase the medication on a massive scale for 
distribution to our Nation's first responders.
    And last, but not least, we should augment Medicaid's role 
as a payer for addiction treatment. We have unfortunately been 
moving in the opposite direction with efforts to curtail 
Medicaid expansion, impose work requirements, and cut funds 
from the program. Instead, we should be increasing the number 
of people covered so that opioid addicted individuals can 
receive the treatment they need to restore them to health.
    I hope this sampling of effective policies gives a flavor 
of how we can best focus our energies responding to an epidemic 
that was made in America, and to which the solutions are within 
America as well. Thank you again for the opportunity to 
testify. I look forward to your questions.
    Mr. Humphreys' written statement is available at the 
Committee or on the committee repository at: http://
docs.house.gov/meetings/JU/JU01/20180215/106864/HHRG-115-JU01-
Wstate-HumphreysP-20180215.pdf.
    Mr. Labrador. Thank you very much. We will now proceed 
under the 5-minute rule with questions. I will begin by 
recognizing myself for 5 minutes.
    Detective Rogers, in your opinion and in your experience, 
what, if any, will be the consequences of continued policies 
that limit the Denver Police Department from working with or 
communicating with ICE?
    Mr. Rogers. I truly believe the fact that we are allowing 
the same people to just be recycled and continue to sell the 
heroin to profit the cartels--I am a realist. I realize that if 
you take someone off the streets, they are going to replace 
them with someone else. But you have to disrupt the trade. You 
cannot allow them to just sell it without the consequences.
    And I truly believe that if we do not come up with a way to 
enforce not only our laws, but the Federal laws and have the 
people that are here illegally selling these drugs deported, we 
are never going to get a hold of that side of the problem. Does 
that make sense?
    Mr. Labrador. Yeah. So in your capacity as the president of 
the DPPA, what has been the response to the ordinance from your 
membership?
    Mr. Rogers. Well, that is why I am here, sir.
    Mr. Labrador. Yeah.
    Mr. Rogers. My membership is not happy. They feel that they 
are being handcuffed; they are being not allowed to do their 
jobs. We represent almost 1,500 officers, and----
    Mr. Labrador. You mentioned that it would have a chilling 
effect. What did you mean by that?
    Mr. Rogers. Well, to me, this ordinance has taken that 
component of my job away. As I testified to, I would call these 
two ICE agents. And I knew that if I contacted them and they 
showed up, that I would probably never see that specific heroin 
dealer on the streets of Denver again; that they would take 
charge and have them deported.
    Mr. Labrador. To your knowledge, has the Denver Police 
Department taken any action in the form of discipline, 
termination, other sanctions against officers who have 
continued to work with ICE?
    Mr. Rogers. Not yet. I do not think anybody wants to be the 
test case, to be perfectly honest with you, sir.
    Mr. Labrador. Okay. Sheriff Louderback, do you believe 
sanctuary policies allow for narcotics to flow more efficiently 
across our borders?
    Mr. Louderback. Chairman, one of the key aspects of law 
enforcement, one of the fundamentals that we have is 
cooperation. You lessen our ability to communicate, operate, 
work together on any of these issues, then you have handcuffed 
law enforcement unnecessarily. It is one of the fundamental 
issues that we face as law enforcement. We work together. 
Sheriffs stand together on this issue nationwide.
    Mr. Labrador. So, how can ICE be a positive force in 
combating the opioid epidemic at the State and local level?
    Mr. Louderback. By cooperation and by removal. There has to 
be a handshake between all law enforcement agencies in this 
country in order for us to accomplish our goal of protecting 
the public. If we are not able to do that, if we cannot work 
together and cooperate across this Nation and figure out a way 
to do that effectively, then that is a serious public safety 
issue.
    Mr. Labrador. Thank you. Ms. Vaughan, do you believe that 
law enforcement can cut off a large segment of the illegal 
opioid market through Federal and local immigration 
cooperation?
    Ms. Vaughan. Yes, indeed. Since the vast majority of the 
illicit opioids that are being trafficked are brought in by 
foreign organizations, if we could improve border security in a 
variety of ways, and also importantly, interior immigration 
enforcement, and go after them where they are doing the 
distribution, which is all over the country. By taking out 
these organizations and the people who staff them, that would 
make a big dent in the availability of opioids in our 
communities, and it would deter a lot of this illicit activity.
    Mr. Labrador. Our sanctuary policies allowing illegal 
immigrants with drug charges to avoid ICE detainers?
    Ms. Vaughan. Sometimes, yes. If they have a policy in place 
that does not permit any cooperation with ICE, if they are 
forced to release criminal aliens that ICE has issued a 
detainer for, absolutely. That sends that criminal alien back 
to the streets to keep working for the drug trafficking 
organizations. And they feel enabled to go about their illegal 
business.
    Mr. Labrador. Dr. Humphreys, I do not think I disagree with 
much of what you said, and I think we may be having two 
different hearings today, because we are not claiming that this 
is not an American-made problem. But you claim in your 
testimony that immigration, by extension immigration policy, 
has no part in the ongoing opioid epidemic. How do you respond 
to Detective Rogers and Sheriff Louderback about their 
experiences in dealing with illegal opioid trade and drug 
smuggling into the United States from Mexico?
    Mr. Humphreys. So all of the heroin that is sent from 
Mexico to the United States each year would fit in 2,000 pieces 
of luggage. Fentanyl is even more potent and more compact. It 
is come through the mail. So, that shows how incredibly 
difficult it is to stop things at the border. We have to have 
some border security. We do have some border security.
    The question, as you know, about where you want to invest 
your resources. So, if pouring, you know, billions of dollars 
into border security that we could spend on I think far more 
productive things in terms of the opioid epidemic, in terms of 
treatment, in terms of changing how prescribing works, and 
getting police officers, and Naloxone, all those things, I 
think that is where we are going to get the benefit, and not 
from border investment.
    Mr. Labrador. Thank you.
    Ms. Lofgren. Thank you, Mr. Chairman. Dr. Humphreys, 
Detective Rogers has expressed his concern about Denver's 
policies. The city of Denver provided a two-page document 
explaining their efforts to combat the opioid epidemic. Did you 
have a chance to review their document, and what do you think 
about it?
    Mr. Humphreys. Yes, I did review the document. And it 
seemed to me they were doing a lot of intelligent things. They 
are expanding treatment; they are trying to use law enforcement 
in a productive way; they are trying to build relationships in 
the community so they can respond in an intelligent fashion to 
opioids; and they are also doing work around distributing 
naloxone. I am not an expert on Denver by any means, but based 
on that document, I think they have got some very smart people 
focused on this problem.
    Ms. Lofgren. You mentioned, and we know from our own 
reports, and in some cases our own districts, that the opioid 
crisis is disproportionately impacting rural America as opposed 
to urban centers; not to say that there is no problem in urban 
centers. Can you give us any insight into why that is 
happening, and what specific solution should be implemented in 
those areas of rural America where this crisis is overwhelming 
our society?
    Mr. Humphreys. So, you know, where I am from in Appalachia, 
you know, we have an incredible disinvestment. I mean there 
just are not the kind of jobs there were when I was a kid. You 
know, the mines do not employ as many people as they used to; 
families are under more strain; more and more people are 
working in low-wage jobs. That creates an environment, you 
know, where people under a lot of stress, where drugs are more 
rewarding because daily life is so tough. And it also creates a 
temptation to enter the illegal economy.
    And what happened where we were was people started taking--
they called it the OxyContin express--a flight from Charleston 
down to Florida, get a couple of garbage bags full of pills 
from a pill mill, fly back, and then sell them. It is the kind 
of thing I think people would not do if they were not 
economically stressed, but they get to that point.
    So we have two things meet. You know, really difficult 
economic times, and just an explosion of pills like no country 
on earth had ever seen before. And that is why I think we got 
hit so hard and why we are still being hit so hard in 
Appalachia and in also rural areas in New England and Northern 
California as well.
    Ms. Lofgren. In terms of drugs coming in--you addressed 
this briefly--but we have got as a source obviously there is 
heroin that comes in across our borders, our southern border, 
our northern border through ports. There is fentanyl, which is 
I think primarily coming from China, but tell me if that is 
correct.
    Mr. Humphreys. That is right.
    Ms. Lofgren. How would we deal with the fentanyl issue, 
which is I do not know how many times more powerful than other 
opioids?
    Mr. Humphreys. So, I mean, part of this is a foreign-policy 
problem. I mean, engaging China, it is terrifically important. 
They can do more about this than we ever can from over here. 
And there has been some engagement, and China did ban some of 
these. Fentanyl has a whole class of analogs, and they are all, 
you know, 50, 100 times more potent than heroin. They can be 
helpful there.
    There is some work being done by Senator Portman on also 
trying to get packages registered before they come to the 
United States, which may help in terms of interdiction at 
efforts abroad. We should try to do those things.
    But fundamentally, this comes down to demand. Nobody will 
sell us drugs if we do not want to buy them. And that is always 
been the case. We are a wealthy country. If we want to buy 
drugs, someone will sell them. You know, people start making 
fentanyl in their garage.
    So that means you come back to, you know, doing prevention 
in the United States, persuading people not to use them, 
getting doctors to prescribe rationally and carefully again, 
and providing treatment to those people who are addicted so 
that they get out of this situation and stop being massive 
consumers of these illegal dangerous products.
    Ms. Lofgren. I was fascinated. I did not realize, before 
your testimony, the amount of legal opioids that we have 
rolling around, swashing around our country. That is a shocking 
piece of information, and I appreciate your testimony. I think 
it certainly enlightens us as to what needs to be done.
    Mr. Chairman, I would also like to ask unanimous consent. I 
have just received a letter from our colleague, Diana DeGette, 
with a statement from the City and County of Denver, where just 
to quote some of it, they say that ``ICE, along with the FBI, 
has access to biometric data fingerprints on every individual 
booked into the Denver County Jail.
    And to the extent Federal law enforcement officials have 
probable cause to arrest any individual housed in the jail, 
whether it be for a civil or a criminal matter arising under 
Federal law, they may do so by obtaining a warrant.''
    And that Denver's choice was to limit its involvement in 
civil enforcement of Federal immigration laws. But that that 
should not be confused with their ongoing commitment to enforce 
criminal drug laws if such individuals commit crimes including 
drug crimes while present in the United States.
    And I would ask unanimous consent to put Ms. DeGette's 
letter, this statement, and a background document, Denver's 
Public Safety Priorities Act, the overview of their efforts to 
address the opioid epidemic, the overview of the Denver Police 
Department's drug enforcement efforts, the Q4 Tracker ICE 
Notification Release Documents; as well as statements from the 
Law Enforcement Action Partnership, the American Immigration 
Council, the Tahirih Justice Center, Church World Service, 
Immigrant Legal Resource Center, and the Drug Policy Alliance 
into the record.
    Mr. Labrador. Without objection.
    This material is available at the Committee or on the 
Committee repository at: http://docs.house.gov/meetings/JU/
JU01/20180215/106864/HHRG-115-JU01-20180215-SD007.pdf.
    Mr. Labrador. I now recognize Mr. Buck.
    Mr. Buck. Detective Rogers, you just heard the statement 
from Congresswoman DeGette, and I think that you probably read 
some of the news accounts yesterday from some of the leadership 
at the Denver Police Department about the access that Federal 
officials have to fingerprints.
    Do you want to respond to that and just tell us? Obviously 
not every American has fingerprints in the system that the 
Federal Government has access to. So, does that tell a Federal 
agency whether the person whose fingerprints are there is in 
this country legally or illegally? Does that help the Federal 
Government in enforcing immigration laws in any way?
    Mr. Rogers. No. I call it the three Ls. Lawyers taking 
liberties with language. Basically they----
    Mr. Buck. Do not belittle lawyers now, because you have got 
a lot of them on that Judiciary Committee.
    Mr. Rogers. I apologize to any attorneys here. They like to 
spin things. And God bless them, they do a great job of it. But 
at the end of the day, your fingerprint, if you get booked into 
the Denver City Jail, there is not a magic switch that goes to 
the FBI that says, `Hey, Nick Rogers is in jail right now.' Now 
if Nick Rogers has a warrant for his arrest and my fingerprint 
is associated with that warrant, absolutely there will be a hit 
that comes back. That is what they talk about biometrics. That 
is a fantastic word.
    But at the end of the day, when you arrest someone on the 
street that is selling heroin and has never been through the 
system before, there is no biometric feed to ICE or the FBI or 
anybody. The sheriffs take their fingerprints and they become 
part of a file at that moment. But they are not magically sent 
across the country, you know, claiming you are illegal or not 
legal. Does that make sense?
    Mr. Buck. It does. Let me ask you some other questions. Are 
you familiar with the slideshow that was prepared by the Denver 
Police Department to explain the new ordinance that was passed 
by the Denver City Council?
    Mr. Rogers. Yes. I believe that is the training that we all 
went through. All officers had to go through that training.
    Mr. Buck. That is correct. And I do not have page numbers 
on this, but I am going to offer this, Mr. Chairman, to be part 
of the record.
    Mr. Labrador. Without objection, it will be made part of 
the record.
    This material is available at the Committee or on the 
Committee repository at: http://docs.house.gov/meetings/JU/
JU01/20180215/106864/HHRG-115-JU01-20180215-SD003.pdf
    Mr. Buck. Thank you. Detective Rogers, one of the 
statements in this slideshow says the act of being present in 
the United States in violation of Federal immigration laws is 
not, standing alone, a crime. Do you recall that slide?
    Mr. Rogers. I do.
    Mr. Buck. And are you aware of the fact that if you enter 
this country illegally, it is a Federal crime, and if you 
overstay a visa in this country, it is not a Federal crime?
    Mr. Rogers. Correct.
    Mr. Buck. And do you also understand that until ICE 
inquires of an individual, they do not know whether that 
individual received a visa or legal status to enter this 
country, so they have no way of knowing until there is 
cooperation among law enforcement agencies whether this 
particular individual committed a crime or is in violation of 
Federal civil law? Is that fair?
    Mr. Rogers. Absolutely.
    Mr. Buck. And also in this slideshow it talks about--I do 
not know if it is meant to be sarcastic or affirming in some 
way--but it says, this sounds similar to what we have always 
done, with a question mark, as if the ordinance did not really 
change policy.
    And what I want to ask you is there is a paragraph in here 
that reads, `No access for ICE to city-owned law enforcement 
facilities beyond access granted to the general public.' Is 
that a change in policy as a result of the ordinance that was 
passed by the Denver City Council?
    Mr. Rogers. Yes.
    Mr. Buck. And in fact is it not true that ICE worked 
alongside Denver narcotics officers--and I think it was in 
District 3, not necessarily your district--on a heroin 
distribution gang out of Honduras that resulted in 59 
deportations. Is that correct?
    Mr. Rogers. I am not familiar with that case, but I have 
had similar cases that I have worked with ICE where we would 
all brief in my office. And we would sit in our conference room 
and, you know, we would put together our tactical plans for 
that day for those arrests. So, those ICE agents were welcome 
in the front door. They are no longer able to even come through 
the security door. They do not even come in the parking lot 
anymore.
    Mr. Buck. And what is the effect of that on the enforcement 
of narcotics laws in Denver?
    Mr. Rogers. It is made it more difficult for us on the 
street, because they have information that we do not; we have 
information that they do not. And when we get together and we 
start talking about who is doing what in certain neighborhoods, 
it is amazing how many narcotics we can get off the street when 
we cooperate with those individuals.
    Mr. Buck. Sheriff Louderback, any comments on that?
    Mr. Louderback. Sanctuary policies reduce the risk of 
criminality. And we cannot cooperate, there is your public 
safety nexus.
    Mr. Labrador. Thank you. And I will recognize the 
gentlelady from Washington.
    Ms. Jayapal. Thank you, Mr. Chairman, and thank you all for 
being here to testify before us.
    Mr. Chairman, I am confused about why our House Immigration 
Subcommittee is having a hearing on something that has no 
factual basis in connecting so-called sanctuary city policies 
with the opioid crisis when there is a massive debate raging on 
immigration issues on the Senate floor; when 800,000 DREAMers 
face deportation in 3 weeks, and when this Committee has yet to 
raise any bill related to protecting DREAMers, something that 
is supported by 90 percent of the American people across 
Republican and Democratic districts. I am confused, frankly, 
about why we are having this hearing.
    And it would be laughable if it were not so serious; if it 
were not so hurtful to the characterization of immigrants 
across this country, that somehow immigrants are responsible 
for all these terrible things, including now, apparently, the 
opioid crisis. And by the way, hurtful to those who are 
suffering from the opioid crisis. I have great respect for Dr. 
Humphreys and the work that you have done to, in a bipartisan 
way, combat what is truly a terrible crisis in this country.
    But I forgot that there are some people in this body on the 
other side, and some people outside of this body on the other 
side who really delight in scapegoating immigrants and do not 
want to recognize that immigrants contribute to the economy 
every day. And to blame one person who is an immigrant for the 
crimes of everybody else, and to somehow pin responsibility for 
some of these terrible things that are happening in our country 
is a good tactic for dividing and scapegoating and driving up 
fear and hatred.
    Mr. Chairman, the latest falsehood is outrageous. 
Immigrants are certainly not making the opioid crisis worse. 
And alleging that deporting or cracking down on immigrants is 
somehow actually going to fix this very real situation is a 
falsehood. Here are the facts. We know we cannot arrest or----
    Mr. Labrador. Would the gentlelady yield?
    Ms. Jayapal. No.
    Mr. Labrador. No one has said that. Everything you have 
said, not a single person----
    Ms. Jayapal. Mr. Chairman, I believe this is my time, and I 
am not yielding.
    Mr. Labrador. Okay. Thank you.
    Ms. Jayapal. Thank you so much. I appreciate that. We know 
we cannot arrest our way out of the opioid crisis. And what we 
should really focus on are the underlying causes. And we do 
need to make sure that law enforcement, because we appreciate 
what you do in your jobs, has the tools in the first place to 
help keep people off their addictions.
    One example of that is the Law Enforcement Assisted 
Diversion Program, the LEAD program, that we pioneered in 
Seattle that Representative Jim Sensenbrenner and I have worked 
in a bipartisan way to continue to get funding so that you all 
have the resources that you need. But we know that community 
trust does matter in combating crime in local cities and 
counties across the country.
    Last year, our King County prosecutor wrote in an op-ed 
that, ``We are not safer when victims of crime fear being 
deported if they call 911, talk to the police, or come to a 
courthouse to get protection. We are not safer when a victim of 
abuse thinks that she must choose between deportation or 
suffering more violence at the hands of her abuser. An 
unpunished violent crime threatens us all.''
    And then, he goes on to say, ``My alarm is not theoretical. 
Last year our office--'' again, this is a Republican King 
County prosecutor--``our office worked with 67 undocumented 
immigrants, more than 300 in the last 5 years, to prosecute 
crimes ranging from murder and rape to domestic violence. 
Without that cooperation and trust of undocumented immigrants, 
we would not have been able to get some dangerous offenders off 
the street.''
    Mr. Chairman, I ask unanimous consent to submit this op-ed 
for the record.
    Mr. Labrador. Without objection.
    This material is available at the Committee or on the 
Committee repository at: http://docs.house.gov/meetings/JU/
JU01/20180215/106864/HHRG-115-JU01-20180215-SD005.pdf
    Ms. Jayapal. Thank you, Mr. Chairman. Just recently we saw 
another terrible example of what this fear is doing in our 
communities. We learned that a 14-year-old girl in Bellevue, 
Washington, my home State, suffered molestation for nearly 2 
years. The reason that she did not come forward to seek safety 
is because her abuser threatened to have her mother deported.
    And in another case, a man in Tukwila, Washington called 
911 to report a person that he suspected of breaking into cars 
on his block. The local police took him to ICE because he had 
an ICE administrative document that popped up in the system. 
And ICE calls this a warrant, but it is misleading because 
there is no oversight by a third-party like the judge. Now, the 
local police are bending over backwards to try and win back the 
trust of immigrants and their family and friends.
    Mr. Chairman, I ask unanimous consent to enter into the 
record two news stories on these cases.
    Mr. Labrador. Without objection.
    This material is available at the Committee or on the 
Committee repository at: http://docs.house.gov/meetings/JU/
JU01/20180215/106864/HHRG-115-JU01-20180215-SD005.pdf
    Ms. Jayapal. Thank you, Mr. Chairman. Now I would like to 
ask--and this is a yes or no question for Sheriff Louderback--
is it your contention that so-called sanctuary city policies 
have a substantial impact on your ability to counter the opioid 
crisis?
    Mr. Louderback. Yes.
    Ms. Jayapal. And have you read, Sheriff Louderback, the 
recommendations of the bipartisan Opioid Task Force? Just a yes 
or no.
    Mr. Louderback. No.
    Ms. Jayapal. Because if you had, you would see--because I 
am a member of that bipartisan task force and it has been 
working for several years on this very serious issue of the 
opioid crisis--nowhere in those recommendations is there any 
reference to sanctuary city policies as being critical.
    Dr. Humphreys, can you tell us more--Mr. Chairman, I ask 
for an additional 30 seconds since the other side had an 
additional 30 seconds on the last round?
    Mr. Labrador. Forty-five seconds.
    Ms. Jayapal. Thank you. You are better than I even asked 
for.
    Mr. Labrador. Thank you.
    Ms. Jayapal. I thank you for that, Mr. Chairman.
    Mr. Labrador. Okay. I already gave you an additional 45 
seconds, so your time has expired.
    Ms. Jayapal. I appreciate it very much.
    Mr. Labrador. Yeah.
    Ms. Jayapal. Dr. Humphreys----
    Mr. Labrador. No. No. Your time has----
    Ms. Jayapal. Oh, you did. Okay. All right. Thank you.
    Mr. Labrador. I now recognize the gentleman from Iowa.
    Mr. King. Thank you, Mr. Chairman. I am just going to do 
the previous presenter. I turn to Ms. Vaughan. This morning I 
wrote a couple of numbers on my hand; $116 billion and another 
one is $38 billion, and I added them up and it is $154 billion. 
This is out of an article written by FAIR just recently. Do you 
recognize those numbers, Ms. Vaughan?
    Ms. Vaughan. Perhaps the cost of illegal immigration to 
State and local taxpayers and the Federal taxpayers?
    Mr. King. Exactly. And I wonder if you would care to 
comment to the remarks made by the gentlelady previous to me.
    Ms. Vaughan. Yeah. I mean with respect to this so-called 
chilling effect that cooperation is supposed to have on crime 
reporting, what is important is that everyone needs to get the 
message; the victims and witnesses are not targeted for 
immigration enforcement, unless they also are criminals and are 
an appropriate priority.
    And this notion that immigrants in the community have 
something to be afraid of in going forward to report crimes is 
put out there primarily by these advocacy groups that advocate 
against enforcement. It is a complete myth and completely 
unsubstantiated in either government statistics, academic 
research, or the real-life experience of law enforcement 
agencies.
    Mr. King. Thank you, Ms. Vaughan. Just an observation. As I 
am listening to this testimony about sanctuary cities, it makes 
me think of ``Butch Cassidy and the Sundance Kid'' and the Hole 
in the Wall Gang, where the criminals all went into that place 
in the canyon where there was a narrow notch that they could 
guard, and they lived in there happily ever after protecting 
themselves and each other from the impact of law enforcement.
    And I would ask Sheriff Louderback, do you see any 
similarities in that with regard to our sanctuary jurisdictions 
across this country? Have they become something similar to the 
Hole in the Wall Gang?
    Mr. Louderback. Respectfully, sir, that is a very good 
analogy.
    Mr. King. I thank you, and I appreciate your testimony 
about the cooperation required between every level of law 
enforcement. I grew up in a law-enforcement family, and I 
watched as every level of law enforcement reached out and 
helped each other. Wherever they had a skill set or a knowledge 
base, they shared information, they worked together.
    Can you name another subject of law enforcement anywhere 
currently or in the history of this country where it is been a 
carve-out, where our local law enforcement declared they would 
not cooperate with any other level of law enforcement?
    Mr. Louderback. Not that I am aware of.
    Mr. King. Detective Rogers, are you aware of any other 
circumstances similar to this with regard to immigration law?
    Mr. Rogers. No, sir.
    Mr. King. And I turn back to Ms. Vaughan because I remember 
you said the numbers 80 to 90 percent, and I just missed the 
definition of what that was and did not see it in your written 
testimony.
    Ms. Vaughan. Of the opioids that are distributed in our 
communities, according to the Drug Enforcement Administration. 
And I think it is important to emphasize that----
    Mr. King. They come from where?
    Ms. Vaughan [continuing]. This distribution is carried out 
by people. And many of those people are in this country without 
authorization. And those people are the subject of ICE and 
local law enforcement agencies. And that is how they disrupt 
the trafficking of these deadly drugs, and that is what keeps 
them off the streets.
    Mr. King. And that is why that number rung my bell, because 
probably as far back as 10 years ago I sat down with DEA, and 
they said to me that day that 80 to 90 percent of the illegal 
drugs consumed in America come from or through Mexico.
    Ms. Vaughan. That is right. Even the fentanyl. It might 
originate in China, but it is processed and imported by way of 
Mexico.
    Mr. King. And another statement that they made was in every 
illegal drug distribution chain in this country, at least one 
link goes through an illegal alien. Would that be consistent 
with what you know, Ms. Vaughan?
    Ms. Vaughan. I am not familiar with that, but it is 
definitely true in certain parts of the country. Especially New 
England, that is certainly true.
    Mr. King. I would turn to Sheriff Louderback. Is that 
contrary to any of your knowledge, Sheriff?
    Mr. Louderback. No. I think it is accurate.
    Mr. King. And Detective Rogers?
    Mr. Rogers. Yes. I agree.
    Mr. King. So, we can understand on this left side, doctor, 
because this is our law enforcement side of this thing, but I 
am hearing a consensus here that 80 to 90 percent of the 
illegal drugs consumed in America come from or through Mexico, 
and at least one link in the illegal distribution chain is an 
illegal alien. And I heard the gentlelady from Washington say 
that that is got nothing to do with immigration.
    It would seem to me that if tomorrow morning everybody 
magically woke up in their home country where they could 
legally reside, it would instantly stop all of the illegal drug 
distribution in America. I do not doubt that there would be a 
reform of those drug distribution chains, because Dr. Humphreys 
does make the point that this is a demand on this side that we 
have to address as well.
    And when I talk to the Mexicans about this in particular, I 
have to confess at the beginning, it is an American demand that 
is bringing about these drug deaths. But it is a distribution 
that comes across the Rio Grande River to us; needs to be 
addressed both ways. And in this Committee, we address it from 
the immigration side.
    So I thank the chairman for holding the hearing and the 
witnesses for the testimony. And I yield back the balance of my 
time.
    Mr. Labrador. Thank you. I now recognize the gentlelady 
from Texas.
    Ms. Jackson Lee. Mr. Chairman, thank you, and to the 
ranking member for her persistent leadership on these issues.
    Frankly, to the witnesses, let me thank you for being here, 
but I would rather be talking about how we save the lives of 
children who have been murdered and slaughtered by assault 
weapons, of which this Congress and this Judiciary Committee 
has failed to act. I would imagine maybe if I would ask the 
Sheriff in a meeting of law enforcement officers--I am not sure 
if he is willing to speak to that here. Everyone is so afraid 
of organizations who oppose common sense, as to whether or not 
he would want a 19-year-old to have an assault weapon, and AR-
15.
    Not that I am interested in the issue of what gun you may 
have, since the Second Amendment is a constitutional right, but 
I would imagine that if the individual had a plain handgun 
that, although tragic, we might not have had that enormous loss 
of life. That is what we need to be discussing here this 
morning. Saving lives, saving lives. Rather than trying to mix 
apples and oranges.
    Sheriff, what are the sanctuary cities in Texas? I see that 
you are from Texas. Welcome; fellow Texan. We are proud of each 
other and proud of your service, sir.
    Mr. Louderback. Thank you.
    Ms. Jackson Lee. What are the sanctuary cities in Texas?
    Mr. Louderback. Respectfully, ma'am, we do not have that 
issue. Senate Bill 4 was passed by the Texas Legislature in 
2017. But we have a consistent application of law and 
cooperation with law enforcement with all law enforcement 
agencies at every level in the State of Texas.
    Ms. Jackson Lee. Well, let me just say that all of us 
living in Texas for more than 10 years, I assume, I know that 
bill was passed with a lot of hoopla, but there were no 
sanctuary cities even before that. And I have been on the 
Judiciary Committee for a very long time here in Washington, 
and that never came up about any sanctuary cities in Texas. So, 
I appreciate State law and that is probably where it should 
stay because there really is no consistency between the 
sanctuary cities and this opioid crisis.
    The three Republican witnesses, have you read the report 
that my colleague from Washington State mentioned? The Opioid 
Task Force of the House report. The three witnesses? Sheriff, 
have you read it? And I am a member of that task force, so 
nowhere in that report did they indicate that there was any 
correlation between sanctuary cities and the devastation of 
opioid. I think it is devastating.
    Are you aware, Ms. Vaughn, of the $1.3 trillion cut to 
Medicaid by the budget offered by the President and the 
Republicans?
    Ms. Vaughan. I am not an expert on those kind of 
entitlement programs, but----
    Ms. Jackson Lee. You mean those life-saving programs. And 
so, I assume you know that the cure or the treatment of 
individuals with opioid has been heavily reliant on Medicaid. 
Are you aware of that?
    Ms. Vaughan. I am not.
    Ms. Jackson Lee. Well, let me just put into the record that 
it is.
    Dr. Humphreys, would you help us? Coming from an 
administration of another fellow Texan that you worked with and 
a great admirer of the Bush family. But in any event, is this 
an accurate correlation? We have heard our colleague talk about 
demand. We have had demand when it was cocaine, when it was 
crack, and we did not have the treatment protocols. So, how 
would sanctuary cities have any correlation? Demand is 
treatment protocols.
    And when we speak of the issue of opioid crisis, we think 
of the New England, Northeast corridor, Midwest areas that have 
devastating poverty. And you look at some of the urban symptoms 
or cities, they may be engaged in drug activity, but we are 
talking about the crisis of opioids. Would you respond to that, 
please, sir?
    Mr. Humphreys. Well, Congresswoman, you described the 
situation extremely well. We, in the end, buy these drugs. We 
choose to do that. And that means we need to invest on the 
demand side. Prevention programs for kids, support for 
families, treatment for the addicted.
    And then, we also need to control our own healthcare 
system, which is here--it does not come from anywhere else; it 
does not matter if it is a sanctuary city--that is spreading so 
many of these opioids out that people are getting addicted. 
And, you know, this problem started, you know, what, 20 years 
ago almost. I do not see any connection with sanctuary cities, 
and I do not think cracking down on them will affect our opioid 
problem at all. I think there are more productive things we 
could do.
    Ms. Jackson Lee. Just a quick question. You do not profess 
to be an immigration specialist, but my understanding of 
sanctuary cities may mean moms and dads, DREAMers, landscapers, 
people working in restaurants. That is just people who are 
undocumented. Do you understand that concept?
    Mr. Humphreys. Yes, ma'am.
    Ms. Jackson Lee. Is that you would have people that are 
undocumented, and you are not just raiding them and arresting 
them, which is going on now under this administration. Is that 
your understanding, sir?
    Mr. Humphreys. Yes, ma'am, with the stipulation I am not an 
immigration expert.
    Ms. Jackson Lee. Thank you. Thank you so much all the 
witnesses who came. We appreciate you.
    Mr. Chairman, I would like to offer into the record that my 
colleague and I join together, the gentlelady from Washington, 
is ``The Center for American Progress, the Effects of Sanctuary 
Policies on Crime and the Economy.'' I would like to offer that 
into the record as unanimous consent.
    Mr. Labrador. Without objection.
    This material is available at the Committee or on the 
Committee repository at: http://docs.house.gov/meetings/JU/
JU01/20180215/106864/HHRG-115-JU01-20180215-SD004.pdf
    Ms. Jackson Lee. Thank you. I yield, and again, I thank the 
witnesses for their service.
    Mr. Labrador. Thank you. I recognize the gentleman from 
Arizona.
    Mr. Biggs. Thank you, Mr. Chairman. Thank you for holding 
this hearing today. I think it is very important, and I 
appreciate the witnesses, all four of you being here today. And 
I think you get a flavor of somehow we manage to turn every 
issue that we hear into some kind of political grandstand. So I 
will try not to do that, but it is a political place.
    So, I want to just start with you, Ms. Vaughan. Are you 
familiar with the Arizona Immigration Law of SB-1070?
    Ms. Vaughan. Yes, I am.
    Mr. Biggs. And do you recall the Supreme Court holding that 
basically repealed or set aside much of that State law on the 
basis that the jurisdiction of immigration was solely held by 
Federal Government?
    Ms. Vaughan. Yes.
    Mr. Biggs. And I guess my question, initially, to go with 
this is do you think that sanctuary cities and States are 
consistent with that ruling in SB-1070?
    Ms. Vaughan. No, they are not, because what sanctuary 
policies are is an attempt to nullify Federal law because local 
jurisdictions disagree with it. And if this happened in any 
other area of the law, whether it is environmental laws, or tax 
laws, or, you know, other laws that you can think of, it simply 
would not be tolerated.
    Immigration officers and the immigration enforcement 
agencies are singled out for interference and obstruction based 
on political differences over what our immigration laws should 
be. But these laws are passed by you folks, by Congress, and 
they are overwhelmingly supported by Americans.
    Immigration law is not some obsolete law that nobody thinks 
is important to enforce anymore. There are important public 
safety consequences that result from that cooperation. And that 
is why the Federal Government needs to take action and impose 
consequences on sanctuary policies, because they are not going 
to change on their own.
    Some of the sanctuary defenders are happy to be martyrs, or 
have their taxpayers be martyrs for the sanctuary cause. But 
they are putting everyone in the community at risk through 
these policies because the result is the release of criminal 
aliens who go back to the streets to reoffend. And that is 
especially the case when these individuals are opioid dealers 
and traffickers. These are people who could be sent home but 
are instead sent back to sell more drugs to people.
    Mr. Biggs. And so with that in mind, let's talk about the 
opioids for a second. And I do appreciate all the testimony 
with regard to opioids that we have heard today.
    In particular, I am intrigued by the statement that you 
could fit all the heroin that comes across here in 2,000 
suitcases. But fentanyl is really what is loose and rampant in 
our streets. And there was some intimation by some who were 
asking questions that maybe fentanyl is not coming across the 
southern border. I find that a dubious comment, and so I am 
going to ask Dr. Humphreys, origins of fentanyl. And we 
recognize that China is a large purveyor of that, but they have 
trade routes basically. And are any of those coming from the 
southern border?
    Mr. Humphreys. No. You are correct about that. Fentanyl is 
primarily produced in China. Some of it is shipped directly 
here through our mail system; some of it is shipped to Mexico 
to trafficking groups who mix it with heroin to basically 
extend the strength of heroin for cheap and then make more 
money. So some of it does come in that way as well.
    Mr. Biggs. Right. So when we look at it coming across the 
border, and Detective Rogers, in your experience, have you seen 
fentanyl distribution in the Denver area that originated across 
our southern border?
    Mr. Rogers. We really do not have a lot of fentanyl in 
Denver right now. We are not seeing the fentanyl. One of the 
issues that you have is when I take heroin off the streets, it 
is tested by our lab, and it comes back positive as heroin. It 
does not come back positive for heroin and fentanyl.
    So there is a chance there is a lot of fentanyl in Denver, 
but I can tell you that we just deal with heroin. So, it is 
kind of hard for me to answer that any differently than I just 
did.
    Mr. Biggs. Thank you, Detective. I am just going to 
conclude by just making this observation here. It appears to me 
that there are those who tacitly support criminal sanctions on 
officers for cooperating with ICE, as we have seen in the 
Denver area, while seeking only treatment options and no 
criminal deterrence on distribution and use of opioids, which 
will perpetuate this problem in my opinion. And so, with that, 
Mr. Chairman, I yield.
    Mr. Labrador. This concludes----
    Ms. Lofgren. Mr. Chairman.
    Mr. Labrador. Yes?
    Ms. Lofgren. May I ask unanimous consent to put a letter 
into the record at the request of Mr. Raskin, who was unable to 
be here today?
    Mr. Labrador. What does the letter say?
    Ms. Lofgren. It is a letter to Mr. Goodlatte, signed by 
several members of the committee, about the opioid crisis.
    Mr. Labrador. Okay. Without objection.
    This material is available at the Committee or on the 
Committee repository at: http://docs.house.gov/meetings/JU/
JU01/20180215/106864/HHRG-115-JU01-20180215-SD008.pdf
    Mr. Labrador. Yes. And just to make clear, we are planning 
on having a hearing on the fuller opioid crisis epidemic. Like 
I said earlier, I do not necessarily disagree with many of the 
things that Dr. Humphreys said today. We have a much larger 
problem, and the full committee will be holding a hearing on 
this. This is the immigration subcommittee, and our job is to 
figure out what the immigration implications are of some of the 
policies and some of the issues that we are dealing with in the 
United States.
    So thank you all very much for being here today. This 
concludes today's hearing. Thanks for all of our witnesses for 
attending. Without objection, all members will have 5 
legislative days to submit additional written questions for the 
witnesses or additional materials for the record. And this 
hearing is adjourned.
    [Whereupon, at 10:18 a.m., the subcommittee was adjourned.]

                                  [all]





</pre></body></html>
